NO.

IN THE
SUPREME COURT OF THE UNITED STATES

Willie Israel Navarette, Petitioner
v.
United States of America, Respondent
ON PETITION FOR WRIT OF CERTIORARI

TO THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

CERTIFICATE OF WORD COUNT

I, Chad R. McCabe, hereby certify that the accompanying Petition for Writ of Certiorari
complies with the word count limitations of Supreme Court Rule 33.1(g). I am using Corel
WordPerfect for Windows 8.0 and have used Times New Roman in the font size as required. This
word-processing system states that the number of words in the Petition is 1,416.

Respectfully submitted on this 20" day of September, 2021.

/s/ Chad R McCabe
CHAD R. MCCABE
419 Riverwood Dr., Suite 104
Bismarck, ND 58504
(701) 222-2500
N.D.State Bar ID No. 05474
Attorney for Petitioner
